<html>
<title> - THE ECONOMIC BENEFITS OF HIGHWAY INFRASTRUCTURE INVESTMENT AND ACCELERATED PROJECT DELIVERY</title>
<body><pre>[Senate Hearing 116-7]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-7

                    THE ECONOMIC BENEFITS OF HIGHWAY
                     INFRASTRUCTURE INVESTMENT AND
                      ACCELERATED PROJECT DELIVERY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 6, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


        Available via the World Wide Web: http://www.govinfo.gov
               
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
22-966 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="56263916352325223e333a267835393b78">[email&#160;protected]</a>                      
               
             
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, -
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 6, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                               WITNESSES

McKenna, Patrick, Vice President, American Association of State 
  Highway and Transportation Officials and Director of the 
  Missouri Department of Transportation..........................     5
    Prepared statement...........................................     7
    Responses to additional questions from Senator...............    20
Demetriou, Steven, Chairman and CEO of Jacobs Engineering Group, 
  on Behalf of the Business Roundtable Infrastructure Committee..    28
    Prepared statement...........................................    30
    Responses to additional questions from Senator...............    38
Replogle, Michael, Deputy Commissioner for Policy, New York City 
  Department of Transportation...................................    42
    Prepared statement...........................................    44
    Responses to additional questions from Senator                   63

 
    THE ECONOMIC BENEFITS OF HIGHWAY INFRASTRUCTURE INVESTMENT AND 
                      ACCELERATED PROJECT DELIVERY

                              ----------                              


                        WEDNESDAY, MARCH 6, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    U.S. SENATE Committee on Environment and Public Works 
Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Building, Hon. John Barrasso (chairman 
of the committee) presiding.
    Present: Senators Barrasso, Inhofe, Capito, Braun, Rounds, 
Sullivan, Boozman, Ernst, Carper, Cardin, Whitehouse, Booker, 
and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. I call this hearing to order. Today, we 
will discuss the economic benefits of highway infrastructure, 
and ways we can accelerate project delivery.
    It is no secret that our economy relies heavily on the 
well-being of our Nation's roads and bridges. In 2015, the U.S. 
transportation system moved a daily average of about 49 million 
tons of freight that was worth more than $52 billion. Annually, 
that is around 18 billion tons of freight valued at over $19 
trillion and these numbers are only going up.
    According to the Department of Transportation, by 2045 our 
aging roads and bridges will carry an additional 4 billion tons 
of freight every year. Our Nation's highways must keep pace.
    The authorization of Federal highway funding will expire in 
September of next year. The Congressional Budget Office 
projects that the Highway Trust Fund will become insolvent 
sometime in 2021. It is essential that Congress invests in our 
infrastructure and specifically our surface transportation.
    That is why we must pass a multi-year reauthorization of 
the highway funding bill that is on time and fiscally 
responsible. If Congress fails to act, States and local 
governments will not have the funding certainty they need to 
plan and deliver vital infrastructure projects for the American 
people. Our highways, our roads and our bridges would struggle 
to keep pace with our growing economy.
    Last November, we kicked off the process with a hearing to 
gather stakeholder input. In January, we held a hearing to 
consider the nomination of Nicole Nason to be Administrator of 
the Federal Highway Administration. One week later, we 
favorably reported her nomination out of committee and to the 
floor.
    The Federal Highway Administration will need a strong 
Administrator to work with Congress on the development and 
implementation of highway infrastructure legislation. It has 
been now over a month since we reported her from this 
committee. As with so many of the President Trump's nominees, 
the process is taking too long. We need Ms. Nason confirmed and 
in office.
    Last month, Ranking Member Carper and I began asking Senate 
offices for their priorities for a highway infrastructure bill. 
As this bipartisan process continues, we must find ways to 
increase the effectiveness of Federal investment, so 
communities can feel the economic benefits faster.
    Maintaining the Federal highway program's current approach 
of distributing funds to the States by formula is key. Using 
the formula-based approach expedites the delivery of 
infrastructure spending. It is an approach that works and 
should be continued.
    Another way to make Federal highway dollars more effective 
is to speed up project delivery, which I believe can be done 
without sacrificing environmental safeguards. As States and 
towns wait to get permits and approvals from Washington, 
valuable time is wasted and costs for projects go up.
    It should not take years to permit projects that take only 
months to complete. In order to truly benefit the economy, 
highway infrastructure legislation must address the needs of 
rural America, as well as urban America.
    Rural roads are vital to bringing raw materials and 
products from the heartland to the coasts. We all buy and use 
goods that are transported on our Nation's highways through 
rural States and communities.
    Federal highways like I-80 run coast to coast, bringing 
these goods and services across America. This includes the 
stretch of I-80 that runs through my home State of Wyoming. We 
must maintain and improve the highways that crisscross our 
rural States to keep vital arteries of national commerce open.
    Our transportation infrastructure provides a firm 
foundation for our economy. As we will hear today, better 
highways, roads and bridges across America strengthens that 
foundation. I look forward to working together in a bipartisan 
way to pass a highway infrastructure bill that will deliver 
real economic benefits for the American people.
    I would now like to recognize Ranking Member Carper for his 
remarks.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you for recognizing me, Mr. Chairman. 
We welcome our witnesses.
    Before I give an opening statement, you mentioned Nicole 
Nason, who has been nominated and I think is a very good 
nominee for Federal Highway Administrator. Last month, we 
submitted some questions for the record. We are waiting for her 
to finish those and soon as we have those responses, I suspect 
we will move forward quickly. I will be happy to work with you 
and move that nomination. We need to get her into her job.
    There used to be a Governor from Ohio named Jim Rhodes. I 
was a Navy midshipman at Ohio State in the late 1960's. He was 
Governor for 8 years. He sat out for 8 years and ran again. He 
was Governor for 8 years. He sat out and then he ran again and 
he almost did it again.
    It was pretty amazing, but when he would give his State of 
the State address, he would mention the word jobs a whole lot. 
The folks in the reporting pool actually would take dibs on how 
many times he was going to say it. He would say jobs 30 or 40 
times in one speech.
    Not just because of that, but I have always been focused on 
jobs and how to create jobs. In our business, we do not create 
jobs, as you know. We create a nurturing environment for job 
creation. A big part of that is the ability to get people and 
goods where they need to go when they need to go. This is an 
important hearing with that in mind.
    People ask me what I like most about my job. I say, I like 
getting things done. They say, you must be really frustrated. 
Some days, I am. In this committee, we actually do get things 
done. We are looking forward to building on what we did last 
year, water infrastructure. We are looking forward to doing 
something equally substantial on surface transportation this 
year.
    I think as we work to achieve that goal, I believe we have 
to acknowledge three important facts. One of those is the No. 1 
way to accelerate projects, quite simply, is to pay for them. 
Second, while the level of investment is critical, we also need 
new thinking as to how we invest and which innovative solutions 
will truly improve outcomes.
    Third, perhaps most important, the benefits of highway 
infrastructure investment will be impeded, if not downright 
nullified, if we do not address the threats of climate change 
and extreme weather events that are increasingly disrupting our 
Nation's transportation system.
    Let me speak first about project delivery and funding. 
Today, over 95 percent of highway projects are categorically 
excluded from review under the National Environmental Policy 
Act, NEPA. I will say that again, over 95 percent of highway 
projects are categorically excluded from review under the 
National Environmental Policy Act, NEPA.
    Moreover, the highway bill passed out of this committee in 
2005 had 10 environmental streamlining provisions for highway 
projects, the highway bill in 2012 had 23 environmental 
streamlining provisions for highway projects, and the highway 
bill in 2015 had 18 streamlining provisions for highway 
projects, and an additional 10 environmental streamlining 
provisions for large infrastructure projects.
    While I will consider all ideas fairly, as I always do, let 
me be absolutely clear: I will not support legislation that 
weakens environmental protections in the name of accelerating 
transportation project delivery. Sometimes it seems that the 
focus on cutting environmental protections is a way to avoid 
talking about the 800-pound gorilla in the room, which is our 
funding shortfall. We have a deficit in the Highway Trust Fund 
that is $13 billion per year, and growing.
    Despite spending more than we collect, we still are not 
spending enough to make a dent in the $800 billion backlog of 
investments needed to merely improve our highways and bridges. 
We also need to look beyond the total level of investment, and 
think about the transportation goals we are trying to achieve. 
For instance, despite increasing spending every year, our 
safety outcomes continue to be dismal, with more than 37,000 
Americans killed on our roads last year, a lot of them were 
pedestrians.
    As we begin to work on the surface transportation bill, we 
are looking for opportunities to address these challenges and 
support a new vision for a 21st century transportation system. 
One critical element of that vision is addressing the global 
emergency of climate change. The transportation sector is now 
our Nation's largest contributor of greenhouse gas emissions. 
The bulk of it these days comes from cars, trucks and vans. To 
reduce those emissions, Federal policy can, and should, 
encourage the purchase of electric or alternative fuel vehicles 
through tax policy, as well as through funding for fueling and 
charging infrastructure.
    Finally, we must ensure that we are planning and designing 
transportation systems that are sustainable and resilient to 
increasingly severe weather and extreme weather events. Nearly 
2 years ago, the Rocky Mountain Institute published a report 
that said installing electric vehicle charging infrastructure 
should be, ``an urgent priority in all States and major 
municipalities. The time to act is now.'' I agree.
    Later today, I will introduce the Clean Corridors Act of 
2019. This legislation would provide grants for the installment 
of electric vehicle charging infrastructure and hydrogen 
fueling infrastructure along the National Highway System. Even 
better yet, this legislation will help us in our efforts to put 
the United States back in the driver's seat of the world's 
clean energy economy, while creating green manufacturing jobs 
here at home.
    I am confident we can pass this bill, as well as surface 
transportation reauthorization into law. If we are able to 
address climate change, encourage innovation and produce a 
sustainable source of funding, let me repeat that last one, 
produce a sustainable source of funding, then we will have 
achieved a great victory for the American people.
    I think we can, and I am very much hopeful that we will.
    Thank you so much. Welcome.
    Senator Barrasso. Thank you very much, Senator Carper.
    We have three witnesses who are here to testify. We welcome 
all of you. We have Patrick McKenna, Vice President, American 
Association of State Highway and Transportation Officials and 
Director of the Missouri Department of Transportation.
    We have Steven Demetriou, Chairman and CEO of Jacobs 
Engineering Group, testifying on behalf of the Business 
Roundtable Infrastructure Committee.
    We also have Michael Replogle, the Deputy Commissioner for 
Policy for the New York City Department of Transportation.
    I welcome all of you. I would like to remind you that your 
full written testimony will be made a part of the official 
hearing record. Please keep your statements to 5 minutes so we 
may have time for questions. We look forward to hearing from 
you.
    Mr. McKenna, please begin.

    STATEMENT OF PATRICK McKENNA, VICE PRESIDENT, AMERICAN 
 ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION OFFICIALS AND 
     DIRECTOR OF THE MISSOURI DEPARTMENT OF TRANSPORTATION

    Mr. McKenna. Chairman Barrasso, Ranking Member Carper, and 
members of the committee, thank you for the opportunity to 
discuss the benefits to our citizens from infrastructure 
investments and speedy project delivery.
    My name is Patrick McKenna. I serve as Director of the 
Missouri Department of Transportation and Vice President of the 
American Association of State Highway and Transportation 
Officials.
    Today it is my honor to testify on behalf of the great 
State of Missouri and AASHTO, which represents the 
transportation departments of all 50 States, Washington, DC, 
and Puerto Rico. We spent the past century building our 
Nation's transportation infrastructure. Once a model of 
innovation, achievement and progress, our current 
transportation system is in dire need of attention and 
investment.
    Our focus today must be on restoring our network of 
interstates, roads and bridges to useful condition, ensuring 
they provide safe and reliable service to the American people. 
Looking forward, we must seek and implement innovation to 
operate the transportation system more safely, reliably and 
with less environmental and community impact. AASHTO and its 
member DOTs welcome discussions related to an infrastructure 
initiative and the reauthorization of the Federal surface 
transportation bill.
    As this committee continues its work, please consider the 
tangible benefits of improving our highways both in the short 
and long term; the importance of the formula-based highway 
apportionments to States; and accelerating project delivery and 
improving our environment through assignment of Federal 
authorities to States. State DOTs appreciate your leadership in 
passing the FAST Act in 2015. Prior to the FAST Act, there was 
Federal funding instability and Missouri was in the difficult 
financial position of considering abandoning maintenance on 
26,000 of our 34,000 miles of roadways.
    Since passage of the FAST Act, Missouri has increased our 
capital budget by $3 billion over 5 years. We live in a market-
based economy where the supply and demand for goods and 
services are typically determined through very clear price 
signals. You know exactly what a gallon of milk costs and what 
you pay for electricity.
    Unfortunately, for use of the transportation system, there 
are no similar price signals. The place to start this 
conversation is to recognize we need to do a better job 
communicating both the costs and benefits related to the uses 
of our transportation system.
    The Federal Highway Administration estimates that each 
dollar spent on road and bridge improvements results in a 
benefit of $5.20 from reduced vehicle and system operating 
costs and reduced emissions from improved traffic flow. Perhaps 
most importantly, according to a Federal Highway Administration 
study, $100 million spent on highway safety improvements will 
save 145 lives over a 10-year period.
    To demonstrate the purpose and urgency of transportation 
investment and the call to action for Congress, please consider 
a single bridge in central Missouri, the Rocheport Bridge. The 
bridge is 60 years old and needs to be replaced.
    MoDOT has programmed only $14 million for rehabilitation as 
the only option due to funding constraints. Replacement is 
estimated to cost well over $200 million. Traffic models 
predict that rehabilitation would close lanes on InterState 70 
for seven to 9 months with three-to 8-hour backups.
    Commercial traffic traveling over the Rocheport Bridge 
touches every part of the continental U.S. within 72 hours. 
This bridge demonstrates the nationally impactful nature of 
strategic investment in seemingly local transportation assets. 
I would be remiss if I did not raise the issue of the $7.6 
billion rescission of unobligated highway contract authority to 
take effect on July 1, 2020 and urge its elimination.
    Progress has been made toward the goal of streamlining 
environmental reviews for transportation projects. However, the 
environmental process is still too long and costly. The most 
persistent difficulties arise from interaction among NEPA and 
other Federal environmental laws.
    Several States are participating in the NEPA Assignment 
Program made available to all States in MAP-21. Changes that 
will make this program both more efficient and attractive to 
interested States include simplifying the assignment 
application and audit process, allowing States in this program 
to be solely responsible for the development of their policies 
so long as Federal laws and the USDOT requirements and guidance 
are met, and adding NEPA assignment authority to Title 49.
    Another streamlining measure is to authorize any Federal 
agency to apply a categorical exclusion that has been adopted 
by any other Federal agency which would make CEs 
interchangeable among all Federal agencies. No matter what we 
might think, we cannot streamline our way into providing a safe 
and sound transportation system. We cannot cut our way to 
buying steel, concrete, asphalt, equipment and labor. We must 
work together to move transportation funding and policy in the 
direction of providing safety, service and stability to all.
    Thank you again for the honor and opportunity to testify 
today. I am happy to answer any questions.
    [The prepared statement of Mr. McKenna follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you so very much, Mr. McKenna.
    Mr. Demetriou.

   STATEMENT OF STEVEN DEMETRIOU, CHAIRMAN AND CEO OF JACOBS 
    ENGINEERING GROUP, ON BEHALF OF THE BUSINESS ROUNDTABLE 
                    INFRASTRUCTURE COMMITTEE

    Mr. Demetriou. Good morning, Chairman Barrasso, Ranking 
Member Carper and members of the committee. Thank you for 
inviting me to testify on the economic benefits of 
infrastructure investment.
    At Jacobs, the 80,000-person professional services firm 
that I lead, we are working every day throughout the United 
States and around the world to solve complex infrastructure 
challenges, transform government and business operations, and, 
very importantly, to enhance communities.
    I am here on behalf of the Business Roundtable, an 
association of CEOs of American leading companies working to 
promote a thriving U.S. economy and expanded opportunity for 
all Americans. At the Business Roundtable, we believe that 
infrastructure is critical to a modern, competitive economy. 
Appropriate investment in infrastructure creates near-term and 
long-lasting benefits.
    At Jacobs, we have seen these benefits, in fact, firsthand 
right here in Washington, DC. with the $390 million 11th Street 
Bridges Project over the Anacostia River. Jacobs led the 
environmental and preliminary design work for these bridges 
crossing the southeast, southwest and Anacostia freeways.
    For decades, drivers were forced onto neighborhood streets 
to compensate for missing links between these highways. This 
restricted movement to local workplaces, schools and stores and 
discouraged economic development. Ultimately, the completion of 
this project improved traffic flows, connected communities, 
triggered billions of dollars of private investment in mixed-
use development and resulted in new jobs, enhanced social and 
economic growth on a local and regional level.
    For decades, America set the global standard when it came 
to transformative infrastructure. Yet, while the benefits were 
clearly tangible, our national commitment to investing in 
infrastructure has more recently diminished.
    As a business leader, it concerns me that the U.S. spends a 
smaller share of GDP of infrastructure than all but two G7 
countries. From 2003 to 2017, U.S. public infrastructure 
spending fell by a staggering 80 percent.
    Forty-four percent of America's major roads are in poor or 
mediocre condition. Twenty-three percent of our bridges are 
either structurally deficient or functionally obsolete. Because 
of inadequate infrastructure, American businesses incur nearly 
$27 billion in extra transportation costs each year.
    Business Roundtable recently completed a study that 
quantifies the benefits of returning our infrastructure to a 
State of good repair and expanding it to meet the demands of a 
growing economy. Let me highlight a few key findings.
    First, every $1 invested in infrastructure can return 
roughly $3.70 in additional economic growth over 20 years. 
Think about that for a moment, a four to one ratio representing 
an extraordinary return on investment. The additional 
infrastructure investment will create 1.1 million new jobs over 
the next decade and boost wages. The average American household 
will gain $1,400 in disposable income every year for an 
increase of more than $28,000 over 20 years.
    Investing in infrastructure will increase real GDP by 
nearly $6 trillion over the next two decades. Every State will 
experience positive impacts on employment, household incomes 
and economic growth. This will also deliver benefits across 
economic sectors from farming, insurance, mining, to 
manufacturing. This is why it is so important to increase 
investment in Federal trust funds, especially the Highway Trust 
Fund where additional revenue is needed just to keep the fund 
solvent at current baseline spending levels, excluding critical 
future needs.
    In addition to infrastructure funding, we must also 
streamline the permitting process. Although the Business 
Roundtable study did not examine the effects of permitting 
reform, we know that red tape increases project costs and 
delays. Streamlining the regulatory process is essential.
    A great recent example of successfully streamlining the 
permitting process is the I-25 Gap Project in Colorado which 
connects Denver and Colorado Springs, the State's two largest 
employment centers. The project used permitting reforms, 
including the FAST Act, among others, to achieve an 
unprecedented delivery schedule, completing the long-range 
planning process through NEPA to the start of construction in 
less than 2 years.
    This is why Business Roundtable supports the 
Administration's One Federal Decision policy. It encourages you 
to codify the 2-year deadline to reach a single decision on all 
proposed infrastructure projects.
    Finally, we also need to modernize America's infrastructure 
through adaptive technology and innovation. At Jacobs, we are 
providing the value of new technologies for transportation 
infrastructure every day. In fact, we are working with Los 
Angeles County to pilot connected vehicle technologies that 
would reduce traffic congestion along an interState corridor 
that is crucial to international trade. In another example, we 
are partnering with Florida's Turnpike Enterprise and Florida 
Polytechnic University to create a test facility to demonstrate 
the resiliency of driverless vehicles in simulated conditions 
of rain, fog and smoke.
    The need for action is clear. The benefits are profound. An 
investment in infrastructure is an investment in the future. 
Business Roundtable is committed to working with Congress to 
advance policies that will modernize U.S. infrastructure to 
support economic growth and expand opportunities for all 
Americans.
    Thank you, Mr. Chairman, for the opportunity to testify. I 
look forward to your questions.
    [The prepared statement of Mr. Demetriou follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you so very much for your 
testimony.
    Mr. Replogle.

STATEMENT OF MICHAEL REPLOGLE, DEPUTY COMMISSIONER FOR POLICY, 
           NEW YORK CITY DEPARTMENT OF TRANSPORTATION

    Mr. Replogle. Good morning, Chairman Barrasso, Ranking 
Member Carper, and members of the committee.
    On behalf of Mayor Bill de Blasio and DOT Commissioner 
Polly Trottenberg, thank you for inviting me here to share our 
perspective on how Federal transportation investment could 
better support sustainable development across America drawing 
lessons from New York's experience.
    We urge Congress to boost Federal funding for 
transportation infrastructure and to increase public 
transportation capital investment grants while ensuring 
competitive grant programs like BUILD are not largely directed 
away from urban areas. We urge support for new flexible funding 
for safety initiatives, for the redesign of streets to 
accommodate multiple travel options, and to safeguard 
transportation assets against extreme weather.
    New York has been a U.S. lab for many of these approaches. 
Our officials realized 40 years ago that we could not solve 
congestion or support economic growth by continuing to expand 
New York City highways.
    Since then, we have focused on improving highway 
operations, maintenance, management and safety, improving 
subways and commuter rail and investing in strategic transit 
expansions. This was not only smart economic policy. By relying 
on multimodal systems, we also slashed traffic fatalities, air 
pollution and greenhouse gas emissions.
    Key to New York's success has been a focus on making it 
more attractive to walk, bike and take public transportation. 
We have begun to cut excessive traffic speeds, enhance 
enforcement and strengthen safety ethics. This has led to 
remarkable accomplishments other communities could learn from.
    Since 2013, U.S. pedestrian deaths are up 30 percent and 
overall traffic deaths are up 13 percent. In New York City, on 
the other hand, we have cut both of these by more than one-
third to the lowest levels in a century.
    My testimony outlines multiple steps Congress should take 
to improve traffic safety, including allocating funds directly 
to local governments and metropolitan planning organizations 
for traffic safety activities.
    Turning to climate change, the transportation sector's 
carbon footprint is substantial and growing, over 28 percent of 
total U.S. greenhouse gas emissions. New York City recognizes 
global climate change as an existential threat and is taking 
action by cutting emissions.
    The City is investing over $10 million in fast charging 
hubs. We are expanding our fleet of 1,300 electric municipal 
vehicles. We are partnering with utilities and the tech 
industry to develop solutions to take electric vehicle charging 
to scale.
    Congress should take a number of steps to address climate 
change. Halt the phase-out of Federal tax credits that 
incentivize the purchase of electric vehicles. Support smart 
electric vehicle charging infrastructure. Ensure that Federal, 
State and local infrastructure investments are designed and 
evaluated to take account of the latest anticipated forecasts 
for sea level rise, rainfall and flooding. Restore and 
strengthen FHWA's recently rescinded greenhouse gas rule that 
was designed to support State and local cooperation on climate 
mitigation plans to avoid wasting taxpayer dollars.
    Last, I want to address project delivery. While Federal 
support for our investments is essential, federally funded 
transportation projects do often take longer to complete due to 
requirements administered by multiple agencies under dozens of 
statutes.
    Expedited delivery need not and should not undermine 
important environmental safeguards and protections. A good 
first step would be to enhance local authority by increasing 
Federal funding directly available to cities.
    FHWA should adopt a direct aid model that resembles the FTA 
process by granting self certification and delegation of design 
authority directly to localities; streamline permitting and 
reviews by developing concurrent permit processing guidelines; 
require States and large localities to develop programmatic 
agreements between relevant State, Federal and local resource 
and transportation agencies to cover routine permitting for 
common activities with triggers for more in-depth review where 
warranted.
    While I have highlighted a number of policy ideas just now, 
my written testimony offers additional details on the 
initiatives mentioned here today.
    In conclusion, this Congress has an exciting opportunity to 
rethink how the Federal Government supports the massive 
infrastructure needs of cities and other communities across the 
Country. I appreciate the opportunity to speak with you today 
regarding New York City's views and I am happy to answer any 
questions.
    Thank you.
    [The prepared statement of Mr. Replogle follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. I am grateful for the testimony of all of 
you. We are going to go to a round of questioning.
    Senator Inhofe, I know you have a pressing matter so I 
would like to turn to you first.
    Senator Inhofe. Thank you, Mr. Chairman, for allowing me to 
go out of turn.
    I wanted to do it because there are two things I want to 
emphasize. You have done a pretty good job of emphasizing, Mr. 
Demetriou, but it is worth repeating.
    You hear the word investments all the time. Every big 
spender around, every big spending program, you never hear the 
word spending, you never hear the word deficit. You just hear 
investments. A lot of time it is a phony characterization. 
However, in transportation, it is not. It is real.
    In my State of Oklahoma, because of some massive 
improvements we have made in our transportation system, two of 
our communities, one, Durant and the other, Innova, are the 
direct beneficiaries as a result of what happened in the 
highway programs.
    In those two communities, the companies are investing $250 
million in one and $360 million in the other creating 300 new 
jobs in each location. The investment the Oklahoma Department 
of Transportation and the Federal Government has made improved 
these highways as a result of property tax, sales tax and all 
of that.
    What I would like to get from you, Mr. McKenna and Mr. 
Demetriou, is any elaboration on this, very briefly, and what 
you see as a return on investment? We will start with you, Mr. 
McKenna.
    Mr. McKenna. Thank you, Senator. That is a great question.
    In Missouri, we actually track our capital program. We put, 
at present, about $900 million per year into that program. We 
track and measure that with an economic study on each 5-year 
period.
    We find when we are at that $900 million to over $1 billion 
level, we see returns of 4 to 1 in economic benefits. When we 
have instability of Federal funding and tighten down the types 
of projects we work on, we can see that drop to $2 to $2.50 per 
dollar invested.
    Consider the changes between a short-term paving program or 
a long-term capital investment program, those returns are 
really stark. We have tracked that for over 20 years.
    Senator Inhofe. I appreciate that very much.
    Mr. Demetriou, you did cover this. Is there anything you 
wanted to add to what you have already said concerning return 
on investment?
    Mr. McKenna. I think I stated that there was a tremendous 
return. Patrick just covered that as well. Hopefully, each of 
you has a fact sheet on your State that has been put together 
by the Business Roundtable.
    Specifically for Oklahoma are the additional jobs you laid 
out, but more important are the benefits to the mining 
industry, finance, insurance and real eState industries which 
are important to your State. Each and every one of you has a 
similar fact sheet.
    For me as a business leader, this is completely tied to 
what we do every day to drive investment and get a high return 
on that capital. It is clear that, from an infrastructure 
standpoint, that is what we are talking about.
    Senator Inhofe. The second thing I would like to have you 
elaborate on a little bit has to do with streamlining. In the 
last two highway bills or transportation bills that we had, 
actually when I was chairing this committee, we concentrated on 
streamlining. It had not been done before.
    I remember that Barbara Boxer at that time came around in a 
lot of areas where she did not agree initially but she changed 
her position. I think that streamlining has come a long way.
    Mr. McKenna, you did not say too much about that. Tell me 
what your thoughts are on streamlining. Some people are saying 
we have already addressed that. We do not need to address it 
more. Why do we need to address it more in this bill?
    Mr. McKenna. Thank you, Senator.
    We do believe we are along the path. We have made 
significant progress in streamlining with a lot of coordination 
going on among and between Federal agencies. We are trying to 
mirror that at the State level between cabinet agencies in each 
State. The coordination efforts that are going on are 
substantial. We do believe that we still have progress to be 
made.
    I want to make sure everyone realizes we are not suggesting 
we delve into the environmental issues themselves. We do not 
wish to negatively impact the environment, but we do think on a 
process standpoint, even in simple projects where we have 
categorical exclusions, that coordination can still be 
improved. We have more work to do. If we can shave, on average, 
3 months off 95 percent of the projects we do, that is a 
substantial return for the taxpayer.
    Senator Inhofe. That translates into more money for 
infrastructure.
    Mr. McKenna. Yes, it does.
    Senator Inhofe. Do you agree with that, Mr. Demetriou.
    Mr. Demetriou. Yes, I do. I really do encourage you to put 
into the law the Executive Orders putting the 2-year limit on 
the permitting process.
    I also want to say there are great examples of projects 
recently applying the FAST Act, applying the deadlines, 
collaborating and cooperating with all the stakeholders 
ensuring government and environmental regulations are 
preserved. We are seeing opportunities to improve and shorten 
the timelines.
    Senator Inhofe. I appreciate that very much.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator.
    Senator Carper.
    Senator Carper. Mike, how do you pronounce your last name?
    Mr. Replogle. It is Replogle.
    Senator Carper. Why?
    Mr. Replogle. Old Alsatian dialect. It means wine carrier.
    Senator Carper. The 800-pound gorilla in the room is always 
how to pay for this stuff. We all know we need to do it. A 
fellow named Earl Blumenauer who I think is from Oregon, talks 
about the purchasing power of the Federal gasoline and diesel. 
I think he is calling for five cent increases for 5 years and 
index it, going forward.
    It reminds me a little of what George Voinovich and I 
suggested almost a decade ago to the Simpson-Bowles Commission 
when we called for increases of four cents a year for 4 years 
and then to index. A lot of people said that was a pretty good 
idea. We never got around to doing it. We really did not have 
the kind of leadership we should have had from the executive 
branch. People were really reluctant here in this body to raise 
fees even for something we know we all need to do.
    I was in a meeting with Senator Inhofe, Senator Barrasso 
and a number of our colleagues maybe 6 months ago at the White 
House, meeting with the President on infrastructure. He said, I 
am not going to give a big speech but let's listen here to all 
of you. What do you think we ought to do?
    He turned to me first. I am sitting right across the table 
from him. I said, the 800-pound gorilla in the room is always 
how to pay for this stuff. I suggested what George Voinovich 
and I had suggested seven, eight or 9 years ago, four cents a 
year for 4 years. He cut me off. He said, that's not enough.
    I looked at John Barrasso sitting right next to the 
President and I winked at him. He said, that's not enough. It 
should be 25 cents and it should be right now. I looked around 
the room and I think there were a few surprised people there. 
He came back to it again and again in the meeting which lasted 
over an hour.
    That night I spoke on the phone with the Secretary of 
Transportation. I said was that just a warn-off or something he 
decided to throw out there as he sometimes does? She said, no, 
he's been talking about this for weeks, actually longer.
    As an old Governor, I have always felt leadership is 
important, especially in doing difficult things. The President 
said he supports 25 cents right now on the gas and diesel tax 
and provides political cover for the Congress. He said, I know 
this is a hard thing for elected officials in the House and 
Senate to do, Democrats and Republicans. I will provide you 
that cover for that.
    I said to the Secretary, was he serious about this? She 
said, he's been talking about it for quite a while.
    I would suggest if we are serious about really doing 
something, I think Earl Blumenauer was on to an idea. I think 
George Voinovich and I had a pretty good idea. I think the 
President has a pretty good idea. What we need is the political 
courage to do it.
    Not just that but can we find more ways to streamline and 
save some money through permitting reform? My guess is we 
probably can. Everything I do, I know I can do better.
    How about the folks out there who use roads, highways and 
bridges and do not bring in anything? They are in electric 
vehicles, hydrogen-fueled vehicles. Shouldn't they have some 
obligation to maintain the roads they are driving on? I think 
so.
    Let me ask you guys to react to what I have just said and 
laid out before you. Then I will ask some other questions. Mr. 
Replogle.
    Mr. Replogle. I think we clearly need more infrastructure 
investment here in America. I think we need to consider a 
diverse array of ways of achieving increased revenues, both 
through traditional means and new innovative means if we are to 
accomplish this. We need to make sure those funds are well 
targeted to the right kinds of investments.
    Senator Carper. We just opened a four-lane limited access 
highway called Route 301 which comes right out of the eastern 
side of Maryland and comes through Delaware. It was always a 
two-lane road in Delaware with a lot of congestion, traffic 
lights and pollution.
    We just converted it into a four-lane, limited access 
highway. It is a toll road with the largest loan from the 
Federal Government. It is a toll road and we are recovering the 
tolls to pay off the loan back to USDOT. That is another 
option.
    Steven?
    Mr. Demetriou. Senator, I agree with what Michael said. 
There is no silver bullet. There needs to be a diverse array of 
public, State, local and private funding. The overlay is it 
really should be user-based. We have that in place today with 
the gas tax. Unfortunately, it is 25 years since we increased 
it. I think we have lost about 40 percent of the purchasing 
power.
    We have vehicles out there that are more energy efficient, 
as you said, some even electric, not even paying the gas tax. 
We need to move to a mileage-based, user fee as quickly as 
possible. Initially, we should start with the increased gas tax 
and then move to a miles-based user fee. At Jacobs, we are 
working with many States and coalitions across the west coast 
and east coast to pilot these. I think we need to accelerate 
that to get to that ultimately.
    Senator Carper. Mr. McKenna, please.
    Mr. McKenna. Thank you.
    Senator Carper. I would ask you to be brief and right to 
the point.
    Mr. McKenna. Great points, and I agree the two primary 
issues we are facing are lost purchasing power from inflation 
over the last 20-plus years, and the rising fuel economy. We do 
have to address that. We do believe there are cost effective 
ways to do that through user fees today, adjusting those user 
fees to help that purchasing power.
    Senator Carper. Have you done anything in Missouri along 
these lines?
    Mr. McKenna. We have made several attempts in that regard. 
We have constitutional prohibitions on legislative authority to 
increase revenues. The public has not agreed with us to date. 
We have not made as much progress as we would like.
    We do have right now one of the alternatives to the fuel 
tax going through our legislature. It is actually a conversion 
of our registration fee to a mileage-based fee. The idea is to 
capture from all users relatively the same amount.
    Whether you are paying gas and fuel tax or whether you have 
an all-electric vehicle or a hybrid, the idea is that we 
capture about $30 a month from each of these users. We need to 
do that across whatever form of transportation you are using.
    Senator Carper. Thanks so much. Thanks, Mr. Chairman.
    Senator Barrasso. Thanks, Senator Carper.
    Senator Braun.
    Senator Braun. Thank you.
    I come from the State, Indiana, where back in 2017 we were 
grappling with the same issues here. Being on Roads and 
Transportation there in Ways and Means, and a fiscal 
conservative, it was easy for us to do it. I spoke vehemently 
to increase the gas tax and diesel, and I own a trucking 
company, 10 cents a gallon on gas, 20 cents on diesel. It was 
in the context of a balanced budget that we do every year and 
cash balances.
    I did not have the reservation of even increasing a user 
fee in the context of what I would call bad fiscal management 
here in general. I think that is the dilemma that we live here 
on the Federal level.
    What I want to talk about mostly, though, and I agree with 
Senator Carper when he mentioned how do you pay for it, I think 
it is disingenuous to rely on an institution like we have here 
that is running trillion-dollar deficits, and $22 trillion in 
debt. That would be infeasible anywhere else, if you are asking 
to get more revenue out of it, whether it is through transfer 
from the general budget or raising a user fee. I think we have 
to work on that in general before we really can do it with 
confidence that it is going to be there and sustainable.
    We started experimenting with some other ideas. We had 
counties and cities constantly wanting more roads and bridges 
fixed within their domains, and had the nerve in that same year 
to throw out a program that had a 50 percent match. They griped 
about it, did not want to do it. It is oversubscribed now in 
the two or 3 years we have done it, because they had no 
capacity to do it. They found the way to do it. Cities and 
counties are going to have capacity to do stuff within a State. 
States have capacities to do more.
    I think we cannot shy away from asking States that 
generally are in financially good shape, to do more. There is 
capital capacity there. Also, through public-private 
partnerships, there is even more probable capital capacity in 
that area. There are a lot of folks who do not like the idea of 
it.
    I think we have to be enterprising. We cannot expect this 
to be solved because look how long it has been and we did not 
have the fortitude to do a user fee here. It would have been a 
lot easier 10 or 15 years ago when we had a balance sheet that 
would not argue against doing it.
    I know in my State, Joe McGuinness, who is our Director of 
Transportation, is really enterprising. I want to mention one 
other thing we did. I authored the bill, could not find a model 
for it anywhere in the U.S. This was for cities and counties, 
locals, to initiate a road project and bring the State along to 
get engaged with it and put skin in the game. Here, it seems 
like you never talk about skin in the game. When you do it, 
things work better.
    We teed-up that bill the same year that we did the long-
term road funding. I can tell you in my home area, we have a 
road project we have talked about for 40 years that local 
industry is going to pay half of the EIS fee and we have shamed 
local governments into matching it, so we are on the board. We 
are getting something done. That is what it is going to take.
    Mr. McKenna, you would be in the same space as Joe 
McGuinness was. He likes it. We were in a State legislature 
that did something. What do you think of the idea of asking 
cities and counties to do more within States and States 
carrying more of the burden because they are better able to do 
it?
    Mr. McKenna. Senator, those are great comments and a great 
question.
    In Missouri, we have a 15-year history of cost share with 
local communities. Those local communities, to the extent that 
they believe investment in the National Highway System that 
runs through their communities is valid and valuable, we do 
have them putting skin in the game. In fact, we have used $450 
million of State and Federal resources and actually produced $1 
billion worth of construction projects.
    I would say that in a State like Missouri, where we have 
the seventh largest transportation network and are ranked 48th 
in terms of revenue per mile, we have been looking, on an 
enterprising basis, for any potential solution we can find on a 
project by project basis. All of these types of programmatic 
project-based approaches work. However, they do not solve the 
entire system base. There are tools in the toolbox that are 
vitally important and everyone should be seeking those. I do 
think DOTs around the Country and communities have been working 
together pretty hard to do so.
    Senator Braun. Thank you.
    In respect of time, I will yield. If there is a second 
round, I have another question.
    Thank you.
    Senator Barrasso. Thank you, Senator Braun.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Thank you to the witnesses for coming. This is one of the 
areas where it is kind of fun to be on EPW. We work together 
and I think we can get a lot of things done. I wanted to flag a 
couple of issues I think are important as we go forward.
    One is I want to add to the record a statement of the 
American Property Casualty Insurance Association made to the 
House Committee on Transportation and Infrastructure.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. They pointed out the importance of 
incorporating climate risk models and climate resilient 
standards into all public infrastructure projects and that it 
is not just designing and building resilient infrastructure, it 
is also retrofitting existing infrastructure in areas at risk. 
I think I see every head nodding about this.
    It becomes particularly important for States like mine that 
are coastal where there is a lot of infrastructure along the 
coast, where we are at risk of losing transport capability to 
flooding. Highway 95, in the big rain-burst flooding of several 
years ago, actually closed because it was filled with water. 
Amtrak has been stopped because of flooding in Rhode Island and 
its railway along the Connecticut coast is a massive, massive 
potential liability. I think it is important that we pay 
attention to what the insurance industry, what the American 
Property Casualty Insurance Association is saying.
    I also want to emphasize as we go forward the opportunities 
for better infrastructure, cheaper construction, more durable 
infrastructure and I think for a lot of our local States, 
economies through the increased use of new materials.
    I would like to ask that a report called The Performance of 
Bridges that Receive Funding Under the Innovative Bridge 
Research and Construction Program by the National Academies of 
Science, Engineering and Medicine be added as an exhibit.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. It points out that one of the problems 
is we lack comprehensive design standards and specifications, 
as well as programs for detailed long-term monitoring. A better 
composite solution might actually be harder to get to because 
the engineers never bothered to write down the specs for 
composite.
    What is in the book is rebar, steel, concrete or whatever, 
so the engineers automatically go to the old and perhaps less 
effective and efficient technology. Trials of composite 
materials were a major interest of participants in the study 
but ``Few of the States that responded to the survey use or 
have specifications for FRP deck elements, super structure 
elements, and pre-stressing tendons. Most States had little or 
no prior experience with these materials.'' I think we need to 
continue to press forward to make sure these new and 
potentially better, lighter, smarter, more durable materials 
have a fair chance to compete against the traditional 
materials.
    In my State, we see more and more of a priority on 
bicycling and walking as an alternative. Obviously, as our 
roads get more and more use, if people were willing to ride a 
bike, many actually prefer to, we shouldn't be foreclosing that 
option. Pedestrian and bike infrastructure, to me, is very 
important in this conversation.
    I will echo our Ranking Member's remarks about the charging 
infrastructure for electric vehicles. I am not a serious car 
person but I like cars and I like driving. When you look at the 
electric vehicles coming into the marketplace, these aren't 
golf carts. This is Jaguar. This is Audi. This is Mercedes.
    I have a Chevy Volt, so I have a GM electric vehicle 
already but they are moving it to their top line, to their 
Cadillac division because they see this as a really huge 
opportunity. The performance specs of these things are, to use 
Elon Musk's words, ludicrous. That is actually what he 
describes as one of the performance options in the Tesla. You 
can blow the doors off a Lamborghini with your electric Tesla 
for about one-fifth the price of the vehicle.
    I think we have to be prepared for a larger and more rapid 
adoption of electric vehicles as the market sees how incredibly 
cool they are and what fun they are to drive. It is like basic 
human characteristics here.
    Senator Barrasso. The question is, do they need a $7,500 
tax credit for people who do buy it?
    Senator Whitehouse. They are easily worth $7,500 compared 
to the $7,500-plus worth of damage that emissions from 
automobiles do. I am eager to support that.
    I have two last comments. As far as environmental 
streamlining goes, I am all for it. I actually led the 
environmental streamlining for offshore wind that actually got 
offshore wind built.
    Once we showed that it could be done, there have been 
literally multiple hundreds of millions of dollars of 
investment in offshore wind that have come immediately into the 
market because we showed the permitting did not have to be 
fatal to the project. I am all for that as long as it is not a 
pretext for crummy environmental protection and rolling local 
communities.
    I do think we, in Congress, need to find ways to reassert 
our priorities through these bills, whether it is highway bills 
or Army Corps water bills. The idea that we just shovel 
enormous amounts of money into these executive agencies and 
then beg and plead for their consideration as to what might get 
funded and get lost in their priorities and their bureaucracy, 
I think we need to revisit that and create a stronger system of 
regard for congressional priorities.
    With all of that, I would be happy if anyone wants to 
comment on that, please do so as a question for the record. 
However, my time has expired so I have to go on. Take that as a 
question for the record and put your answers in writing if you 
would like to respond to any of those thoughts.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank you all for being here today.
    Mr. McKenna and Mr. Demetriou, you both cited several 
statistics on the return of investment for infrastructure as 
being as high as maybe one to four. There is another side of 
the ledger, I think, that you all are aware of.
    A study was released in 2017 for our State of West Virginia 
that said drivers in West Virginia spent $1.4 billion, 
including an average of $647 per vehicle, increased operating 
expenses due to potholes and poor conditions of the roads. We 
also have rural bridges and you mentioned Missouri with the 
same kind of issues with your bridges that are in poor 
condition. We have quite a few bridges in our State. I want to 
bring that up and my colleague from Indiana brought up what 
they are doing.
    Driving the message in our State probably two-and-a-half to 
3 years ago was more the negative effects of not doing 
anything, not improving your infrastructure and the negative 
effects it was having on the lifestyle and ability to do 
business in our State, the opposite side of the ledger.
    We actually passed a $1.6 billion road bond in the State of 
West Virginia which has difficulty on our economics much like 
my colleague said. It raised the gas tax with people willing to 
pay to have better and improved infrastructure in their lives. 
You can follow the progress we are making in West Virginia on 
the website. It is very transparent at the DOT website.
    I guess my question is, do you think the better driving of 
the message from here is on the negative? We are obviously good 
at driving negative messages from time to time. Is it a message 
that needs to be obviously both a positive benefit through the 
business? Mr. Demetriou, you outlined that quite well.
    From a State perspective, I am sure in Missouri you can 
drive a negative message and drive more voter satisfaction on 
that. Do you have any comments on that?
    Mr. McKenna. I do, Senator. That is a wonderful point. I 
think we do, as an industry, and all States need to drive a lot 
of the messaging forward, the costs and benefits and also 
really what the cost of doing nothing is.
    We put together a citizen's guide for transportation 
funding in Missouri and put it on a website. We have determined 
the price people pay is about $30 a month for access and use of 
the transportation network but the cost of doing nothing 
exceeds $180 a month.
    Those higher maintenance costs, the cost for insurance for 
increased damage to vehicles and for, unfortunately, incidents 
that rise up as much as to fatalities all over the Nation, 
those costs are very important. You can see very clearly, I 
think, the path for solutions in policy when you understand 
that you are exceeding your costs by $150 a month.
    Senator Capito. Mr. Demetriou, do you have a response to 
that?
    Mr. Demetriou. I think at the end of the day, you stated it 
very nicely, if people understand what the purpose is and buy 
into that purpose, they are going to support it.
    Senator Capito. Right.
    Mr. Demetriou. Whether it is to overcome the negative or it 
is to enhance lifestyle and make things more efficient.
    I will also talk from a business standpoint that as 
infrastructure is improved, it is going to accelerate business 
investment because businesses are going to be more confident in 
expanding their business facility, whatever it is, knowing 
there is going to be more efficient infrastructure and 
transportation adjacent to their facility.
    Senator Capito. Right. Thank you.
    One of the things we talked about in the President's 
proposed infrastructure package last year and over the last 2 
years was to try to look at what infrastructure really means. 
For me in a rural State, enhanced broadband deployment is an 
exceedingly important part of an infrastructure package that we 
would put together, realizing that the highway bill is 
different.
    I am thinking if we are looking for efficiencies, we have a 
lot of dig once provisions to be able to enhance not just what 
is going in surface transportation. There might be some 
economic benefits to doing that too. In other words, working 
with internet service providers, we will dig once for you, but 
it is going to cost you maybe not that much, but it is a better 
efficient way to move about.
    Do you have any thoughts on that?
    Mr. Demetriou. You just touched on what is a tremendous 
opportunity for the United States, smart infrastructure, and 
connected infrastructure. I think the more we can look at it 
holistically, connecting buildings, highways, airports, the 
whole infrastructure community and create smarter cities, 
smarter buildings, smarter infrastructure, it will accelerate 
the improvement we are all talking about.
    Senator Capito. And make our dollars go further, I think.
    Mr. Demetriou. Exactly.
    Senator Capito. Thank you so much.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Thanks to all of you for your testimony today.
    We all know we have a huge infrastructure gap in our 
Country, the gap between the need to modernize our 
infrastructure and the resources we are dedicating to it. I 
hope, as a Congress, we can figure out a way to significantly 
increase our investment in that area.
    We talked about some of the proposals today. That is true 
whether we are talking about broadband, highways or transit. 
This is one little sample of what is happening every day around 
our Country.
    This is from yesterday's Baltimore Sun. The potholes are so 
bad on a stretch of the Baltimore-Washington Parkway that the 
speed limit was lowered to 40 miles an hour because the 
potholes were so bad. Senator Cardin, my colleague from 
Maryland, may even come that way. It is just one more example 
of what we are seeing every day. We cannot just keep fiddling 
here while our infrastructure crumbles away. I want to thank 
all of you for being here.
    Let me ask you, Mr. Replogle, and thank you for your prior 
service in the State of Maryland, I think in Montgomery County 
with the Park and Planning Commission, is that right?
    Mr. Replogle. Yes.
    Senator Van Hollen. Our loss is New York's gain.
    You have a statement from your testimony saying you ``urge 
Congress to increase public transportation capital investment 
grants and take steps to ensure that competitive grants like 
BUILD are not largely directed away from urban areas. Rather 
than allocating funding solely to existing formula programs, we 
urge new support and flexible funding for State and local 
traffic safety initiatives for the redesign of our streets to 
accommodate multiple travel options and for efforts to 
safeguard transportation assets against extreme weather.''
    Can you just elaborate a little bit on that? I am wondering 
if that sentiment is shared by our other witnesses here as 
well.
    Mr. Replogle. We are at a place where we can direct our 
transportation dollars in a way that does more to advance our 
national and community goals or we can direct it as we have 
directed it in the past where it does not always deliver the 
most performance.
    We have 37,000 people a year killed on our highways. Those 
numbers are moving in the wrong direction nationally. If you 
look across the Country, there are a few communities like New 
York City that have been able to significantly push those 
numbers down with some concerted action.
    We call our initiative Vision Zero. It involves lowering 
the speed limit on city streets, enforcing traffic laws that 
provide for better traffic safety, doing reengineering on our 
streets and our intersections to make it safer to walk, bike 
and move about, and making sure we have multimodal street 
designs that accommodate bus traffic more efficiently so that 
buses are not stuck in traffic but can move more quickly.
    These helps the whole transportation system be more 
productive at getting people to jobs and opportunities with 
less taxpayer spending.
    Senator Van Hollen. That would require directing some 
formula funds outside the current formula or additional funds?
    Mr. Replogle. The challenge we have now is a lot of the 
formula funding goes to the States and yet a lot of these kinds 
of initiatives that I described are done at the local 
government level. The money is not getting to the local level.
    Senator Van Hollen. It has been a major frustration, I 
know, with a lot of counties in the State of Maryland.
    Mr. Replogle. We are calling for direct funding to larger 
jurisdictions following the model of the Federal Transit 
Administration which directly allocates funding and allows for 
design processes and effective delegation of authority for 
project reviews and permitting so that we do not have to go 
through an extra layer at the State level which makes for 
inefficiency and often, in fact, filters out the funding so it 
does not get to the local level at all.
    Senator Van Hollen. I look forward to following up with you 
on that.
    I know the time is limited. You talked about the transit 
programs. Within the FTA programs, there is the capital 
investment grant program. I am interested in adapting that idea 
to help create a fund of money for bridges.
    When I talk to folks across our State and hear about the 
crumbling bridges, it is a huge safety issue. They do not seem 
to rank very high on the list of priorities when it comes to 
the funds.
    I am also interested in whether all of you would support 
the establishment of the equivalent to the Capital Investment 
Grant Fund at FTA within the Transportation Fund for bridge 
purposes?
    Mr. Replogle. As a city with 789 bridges, I think we would 
support that kind of initiative, especially if the funding 
enabled some direct allocation to larger jurisdictions below 
the State level.
    Mr. McKenna. If I might, I do not disagree with any of the 
comments about the need. I do think if we look at this as a 
single pie that is not growing and we carve it up differently, 
the asset management needs of State DOTs, with the backlogs and 
numbers we have talked about, the difficulty and the reason why 
some of those funds are not moving through into those other 
priorities is simply there are not enough dollars going into 
the pie.
    That is a critical issue for all of us. As a State with 
24,000 bridges, bridge funding is an absolute priority but if 
you reduce flexibility for the States to address the most 
important priorities in their asset management plans without a 
concurrent rise in the resources available to do so, you will 
not have the desired effect.
    Senator Van Hollen. Back to the bridge program, I am 
talking about additional funding source.
    Thank you all very much.
    Senator Capito.
    [Presiding.] Thank you.
    Senator Ernst. Thank you, gentlemen, for being here today.
    I think through the discussion we have heard, there are a 
lot of ideas out there. We all need to make sure there is smart 
investment in our infrastructure. I think we could all agree, 
we do need to control waste and do need to encourage greater 
efficiencies in what we do as well.
    Mr. McKenna, one of the streamlining ideas you touched on 
in your testimony relates to the categorical exemptions or the 
CEs. You recommend allowing any Federal agency to use the CE if 
it is already in place at another agency.
    This does seem to make sense to me. It would provide that 
greater efficiency. If one agency has a CE for a certain 
action, then another agency should also have a CE for that same 
action.
    Do you have any examples of how the lack of a CE or CE 
interchangeability between agencies has actually slowed 
projects?
    Mr. McKenna. We can certainly draw in several examples from 
all over the Country. I will submit those for the record.
    What we do know is that in our own dealings, in many cases 
when we are working on our bridge work, when we are crossing 
major rivers, even if there are slight replacements, we can 
have circumstances where we have what we need from one agency 
and another does not have that authority, so they have to go 
through a more substantial environmental assessment.
    That is where we find the slow-down. When that does happen, 
in fact, it is a very similar process within each agency. USDOT 
has some ability to do that across modes, but not across to 
other agencies of the government.
    Senator Ernst. It would be helpful in your estimation?
    Mr. McKenna. Yes, it would.
    Senator Ernst. Between agencies.
    Is this recommendation something that most folks you have 
worked with would agree on?
    Mr. McKenna. Yes. We do believe that the work done by one 
agency versus another is quite similar, so it is a matter of 
speeding up the process, not short shifting the environmental 
regulations.
    Senator Ernst. Certainly, but if one agency has done it?
    Mr. McKenna. That is right.
    Senator Ernst. Right. Where would you receive pushback on 
this idea?
    Mr. McKenna. As we have made progress with the FAST Act and 
MAP-21, I think we have made progress there. I believe we are 
gaining momentum to continue with that forward. It is when we 
come across statutory limitations between the programs and 
between different agencies with different congressional 
mandates, that is where we see some of the issues.
    It is not so much that people do not wish to do it. It is 
that they may not have the statutory authority to do so.
    Senator Ernst. Very good. I appreciate that.
    Mr. McKenna, can you go into some detail on what you think 
are the benefits of States participating in the NEPA assignment 
program? I think there are only a few States right now that do 
participate in that. If you could, what do you think is keeping 
other States from getting onboard with that?
    Mr. McKenna. I think we have seven States now that are 
participating in that assignment. We do have some resource 
issues at the State level, being able to receive that 
responsibility and coordinate that.
    Some work to further streamline the application and 
approval process I think would be beneficial to help encourage 
others. In other cases, it is really a matter of working on a 
programmatic basis to set agreements that benefit both the 
State and the Federal Government. Being able to coordinate 
those efforts more could encourage that.
    Certainly in the States that have much more significant and 
complicated projects, it is a higher priority. In States like 
Missouri, our average project delivery timeframe is under a 
year. We have wonderful partners with Federal Highway, our 
division office is a terrific partner with us, and we work with 
our locals, our cities and our communities to try to quickly 
make commonsense investments.
    Senator Ernst. I appreciate that. I have very little time 
left. I will stop there but I do think as long as we are taking 
a look at this, we need to understand our dollars need to go a 
little bit further. The less we spend on the bureaucracy, the 
more we can actually spend on our infrastructure.
    Thank you. I appreciate that.
    I will yield back.
    Senator Barrasso.
    [Presiding.] Thank you, Senator Ernst.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. Thank you for this 
hearing.
    The economic impact of modernizing our infrastructure I 
think is obvious. It is good to be able to establish the record 
here.
    I want to cover a couple of points, if I might, as we deal 
with the economic returns of the infrastructure. Senator Van 
Hollen mentioned the fact that the B-W Parkway, I do take that 
road, the highway speed has been reduced to 40 miles an hour 
because of potholes. I admit that is under the Park Service, 
not under these programs, but it does point out the fact that 
we are not maintaining our transportation infrastructure.
    One of the things that concerns me is we all look at the 
opportunities to modernize our infrastructure and we always 
look for the glamorous new opportunities, as we should because 
it does provide economic growth.
    However, we do not invest in maintaining our infrastructure 
at a level that we need to. That is why we have bridges that 
are falling down, roads that are not really safe and we do not 
really invest in resiliency recognizing the realities of the 
changing climate conditions.
    We invest for the purposes of getting a good return. In 
reality, we are not investing in maintaining or dealing with 
resiliency. As we look at the reauthorization of surface 
transportation, I am wondering if any of you have thoughts as 
to how we can have a better decisionmaking process at both the 
Federal and local levels so that we do not just throw money at 
new projects and see existing essential transportation programs 
sort of crumble.
    I could also mention not only in this committee's 
jurisdiction but our transit systems are in horrible condition. 
We have seen loss of life in the transit system here. How do we 
make sure that we deal with maintenance and resiliency?
    Mr. Demetriou. Let me start and tell you what I am seeing 
it takes with regard to our clients across the United States. 
More and more everyone is seeing what you are talking about.
    Every project we are working now has not only the 
corrective action for the infrastructure or the expansion, but 
it is putting sustainable solutions in place, putting in new 
technology and innovation to make it more efficient, both to 
operate and maintain as well as the construction side of it. I 
think as we go forward, we need to put policy in place that 
ensures everything is addressed not just the short-term 
solution.
    Mr. Replogle. In New York City, we are increasingly taking 
a triple bottom line approach to asset management. We have 
stepped up the amount we are investing in repaving our asphalt 
roadways. We are taking strong action on behalf of our $15 
billion, 10-year capital program from my agency goes to keeping 
our bridges in a State of good repair and trying to improve 
that.
    We are looking increasingly at where we need to replace or 
modify old bridges. The average age of our bridges in New York 
City is over 75 years. As the city has evolved and grown around 
those, it commands us to take a fresh look at how we manage and 
redevelop those assets over time.
    I think the Federal Government could take those kinds of 
models and embed them in new legislation to encourage a triple 
bottom line asset management program for the United States as 
part of a performance-based transportation initiative.
    Mr. McKenna. I would agree with what Michael said. Asset 
management is really the key. I think you are seeing that 
across the Country. Some of the requirements on performance 
management and metrics were put first in MAP-21 and then in the 
FAST Act.
    Some of the State DOTs are really waking up to that and 
doing a very good job of asset management. Simply put, asset 
management alone cannot do it. We need steady funding, need to 
know that it is coming, and need to know what amount it will be 
in so long-term reauthorization and steady funding is vital.
    You are planning, in a budgetary sense, on a one Fiscal 
Year basis in a budget sense. State DOTs and asset management 
plans are 10 years long. We are projecting out 20 and 30 years. 
Without knowing the amount we can invest, all of those plans 
are for naught.
    Senator Cardin. Let me respond to the point from Senator 
Van Hollen on local input without having to go through the 
States. We do have a model under the Transportation Alternative 
Program so we might be able to build on that type of model on 
some of the issues you refer to because that has been a 
successful model for local governments being able to have more 
control over projects in their own communities without having 
to go through the State funds.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Braun, you had a question or two you wanted to 
follow-up with?
    Senator Braun. Thank you.
    This is for Mr. McKenna. I am asking you this because it 
was stated early on that it has been a long time since we have 
adjusted the fuel tax. We are in the worse shape possible doing 
things out of our general fund in the current context. I want 
to put you on the hot seat but I think I know what the answer 
would be in Indiana.
    Do you think in Missouri, if the formula was changed from 
the 20-80 to where it would ask States to do more, or whether 
there was a separate grant process or funding say on a 50-50 
basis like we did in Indiana with cities and counties, do you 
think that is something Missouri would interested in, in terms 
of not relying on something that is not currently working 
because I think roads across the Country are getting in worse 
and worse shape. Where do you think Missouri would be?
    Mr. McKenna. Frankly, we have challenges with funding 
across the board. States across the Country and in Missouri, we 
do count on Federal partnership and we do not rely solely on 
that Federal partnership.
    As I said, we have a cost share program where we are 
encouraging local participation, but we do need, as I mentioned 
in the example and what you can see in my testimony, a single 
bridge, the Rocheport Bridge needs to be replaced. Within 72 
hours, the commercial vehicles that travel on that touch every 
single State in the continental U.S.
    Even local projects require that. There is a purpose for 
the national program to be able to invest in those.
    I am hesitant to think we would go off or move away, from 
in its entirety, the Federal-State partnership that exists 
today. However, we just dropped two discretionary grant 
applications for INFRA into the hopper where the State is 
assuming a 70 percent share.
    On a case-by-case basis, one of them is to solve that 
Rocheport Bridge problem, but on a case-by-case, project-by-
project basis, yes. On a programmatic basis, I think we are a 
little hesitant.
    Senator Braun. You would still be interested in keeping it 
on the 20-80 formula?
    Mr. McKenna. Yes.
    Senator Braun. I think that would be the reaction from most 
States. I just think it is going to be shortsighted because I 
think if we want to get those things done within our States, we 
are going to have to start being willing to do more because if 
you look at what is happening here, we are in the least capable 
shape of doing what needs to be done across the Country.
    I am glad you are at least taking advantage of the INFRA 
grants. I think I would think about maybe doing more as a 
State. I know in Indiana, we would definitely think about it.
    Thank you.
    Senator Barrasso. Thank you, Senator Braun.
    Senator Carper.
    Senator Carper. I just want to follow-up.
    As a former Governor, one who has thought a lot about 
State-Federal partnership on this front, I just jotted down 
five or six ideas on trying to pay for this hole, how to fill 
this hole for infrastructure and surface transportation.
    One would be to restore the purchasing power of the 
traditional user fees that we have had for many, many years. 
Two is a toll. I talked about tolling, a four-lane highway we 
just opened in Delaware a month or so ago.
    Public-private partnerships, a lot of people say that is 
the key, that is the magic. It is probably not. I think there 
were about 40 public-private partnerships in the Country in the 
last decade or so. It is not a lot but it is part of the 
answer.
    We talked about streamlining. We have done a fair amount of 
that already. There may be other ways to do some more. I am not 
interested in degrading the environment but exploring 
technology to be able to build more durable structures as we go 
forward in time.
    This is your point, somehow figure out how to leverage more 
State and local funding and craft our Federal funding in a way 
that does that. I think eventually, for the folks driving 
vehicles that do not use any gas or diesel they have to start 
paying something as well.
    Eventually, what I would like to do is ramp us up to some 
kind of vehicle miles traveled. I think a dozen or so States 
have been involved a bit in these pilot programs. I think there 
are seven active right now. I think that is part of the future.
    Thank you very much for mentioning that.
    Mr. Replogle, in your testimony, you urged Congress to 
increase Federal funding for transportation infrastructure. You 
also State not all transportation investments yield similar 
benefits. Could you elaborate for us how Congress should ensure 
that increased spending is directed to supporting productive 
long-term investments?
    Mr. Replogle. I think there are a number of studies that 
have been done over the years showing if you invest $1 in a new 
highway, it creates little over a dollar's worth of economic 
activity.
    If you invest that dollar in public transportation, you 
play this through economic multiplier models, 80 percent of 
that dollar in public transportation goes into transportation 
into wages for the people who are providing the public 
transportation services. That multiplies to about $2.80 in the 
local economic activity.
    You can look at this from an economic multiplier. The 
economic multipliers are heavier for transit investment than 
they are for highway investment. Those vary somewhat from 
region to region.
    You can also look at this from the standpoint of capital 
investment dollars. If you put those dollars into expanding a 
highway, an interState highway, it is going to certainly create 
jobs in the construction industry and provide for long term 
mobility.
    If you put that same money into building sidewalks and bike 
paths in communities, it is actually more labor intensive and 
creates more local jobs that are somewhat less skilled, so it 
helps support the local base of the economy while also helping 
traffic safety and saving lives in ways that we have not been 
paying sufficient attention to in America.
    That is one of the reasons why pedestrian deaths keep going 
up at a much sharper rate than overall highway deaths which are 
still going up. We need to address both of those. We need to 
think about those things together, again, triple bottom line, 
economic, social and environmental.
    Senator Carper. I have a follow-up question for you.
    Later today, I am going to be introducing legislation 
entitled The Clean Corridors Act of 2019 which expands 
opportunities for electric vehicle charging. I would ask, how 
critical is EV charging infrastructure build out as a tool to 
address the global emergency of climate change?
    Mr. Replogle. It is quite urgent that we rapidly invest in 
electric vehicle charging opportunities so that you can take a 
trip, most trips across America, without having to have range 
anxiety that you are going to have trouble finding a place to 
recharge your vehicle in a convenient way.
    We have that ability with the gasoline and diesel-powered 
fleet, but we do not have that quite yet for electric. We will 
need to electrify our surface transportation if we are to 
decarbonize it and to address the climate change challenge that 
is an existential crisis for our society and our civilization.
    Senator Carper. Thank you.
    You mentioned a trip across America. My wife and I went to 
see a movie last weekend that won the Academy Award for Best 
Motion Picture, Green Book, which is a trip across wide parts 
of America by a talented African American pianist, Don Shirley, 
I think was his name, he was actually quite a concert musician 
as well, and a guy from the Bronx who was Italian-American. The 
two of them could not have been more different.
    The story is set in 1962 and going through the South. If 
you were African-American, you had to use this Green Book to 
find a place where you could stay and eat. It was a wonderful, 
wonderful film. It reminded me a bit of Hidden Figures, the 
NASA stuff with John Glenn which was also inspiring.
    It is nice to know they still make movies like that. It is 
nice to know we still have hearings like this.
    Thank you all.
    Senator Barrasso. Thank you very much, Senator Carper.
    Mr. McKenna, earlier Senator Carper cited the Government 
Accountability Office statistic that about 96 percent of 
environmental reviews are completed through categorical 
exclusions.
    Does this figure mean there are no more or other meaningful 
ways we could further accelerate project delivery?
    Mr. McKenna. No, I think actually that citation shows that 
even within the process for categorical exclusion that might be 
one of the areas that moves the needle even further. If we make 
a 50 percent gain in efficiency on 95 percent of the projects 
in this Country, that is a significant gain on process, not on 
projects that would impact the environment.
    I think even when we shave a week, a month, 2 months or 3 
months off that, in a lot of States in this Country that is the 
whole construction season. It is really impactful.
    Senator Barrasso. Mr. Demetriou, do you have any examples 
or thoughts on that specific question as well?
    Mr. Demetriou. I want to use three projects I want to 
highlight and how it can be done in today's environment.
    The 11th Street Bridge is a project I mentioned earlier and 
the Anacostia River. Average infrastructure projects of an 
equivalent type nature were six-plus years. That project was 27 
months to get a record of decision.
    I already mentioned the Colorado project, 2 years. Then the 
Elgin-O'Hare West Bypass is another great example, 6 months 
ahead of schedule to get the record of decision.
    All three of these projects basically had the four key 
elements needed in addition to policy. It had up-front funding 
that was committed. A lot of times that is the major driver. 
Two, it had upfront commitment by the political environment, 
the regulatory and the business purpose was clear whether it 
was a need to respond to a disaster or need for improvement.
    I think the biggest piece was the collaboration and 
communication people committed to. The regulatory agencies, the 
owners and the contractors altogether made sure that upfront 
everyone knew what had to get done.
    It is already happening. I think the more we can codify and 
put this into law, we will further accelerate all of that.
    Senator Barrasso. I appreciate that.
    I do have AASHTO's FAST Act reauthorization proposals from 
November 2018 which include a number of the recommendations for 
streamlining these environmental reviews for transportation 
projects.
    If there is no objection, I ask unanimous consent to enter 
this into the record. It is so ordered.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Director McKenna, in the last Congress we 
heard from a number of State Departments of Transportation that 
the Department of Transportation's non-environmental 
requirements could be reduced in ways that would give States 
more flexibility, empower States to focus on priority tasks, 
and accelerate projects.
    One idea is to make stewardship and oversight agreements 
more standardized and less proscriptive, and more efficient. 
These agreements are often too complex and can add burdensome 
requirements in Federal approvals that are not required by 
statute.
    Do you see opportunities for these agreements to be 
simplified and for the Federal Government to be more flexible?
    Mr. McKenna. Mr. Chairman, thank you for the question.
    Yes, we do, particularly in those areas where some of the 
requirements when we talk about the State standard 
specifications, when we talk about pavement design policy, 
value engineering policy and a number of those other areas, 
there are, in many of the stewardship and oversight agreements, 
requirements that those be preapproved, those State policies be 
preapproved although that is not a statutory requirement.
    We do think there are some good commonsense areas to 
further that discussion, to narrow it and make more 
programmatic the agreements.
    Senator Barrasso. As you also know, Congress often has 
difficulty reauthorizing Federal transportation legislation on 
time, often requiring repeated short-term extensions to the 
program. Could you talk a bit about what happens to your 
projects if we do not enact a long-term reauthorization bill 
before it expires next year and instead just do short 
extensions?
    Mr. McKenna. Very specifically, when I joined the Missouri 
Department of Transportation, it was just at passage of the 
FAST Act. Prior to that, there had literally been a halt on new 
projects. Because of that short-term funding scenario, the 
State stopped taking financial risk, risk on reimbursement of 
the Federal program.
    It very much narrowed the types of projects we were working 
on. That was a great harm, I think, to the State. As it stands 
for what we are projecting right now, we very specifically 
already seeing in 2021 $330 million of project risk in our 
current capital plan we have already committed to. Our 
communities are getting really concerned about that.
    Further, we try to do a 5-year capital program. When we do 
not have the Federal certainty, we cannot commit to those 
projects. We are running with our metropolitan planning 
organizations and our regional planning commissions throughout 
the State. We are actually running two capital programs in the 
event that the Federal Government, that Congress does not act 
to bolster that Highway Trust Fund and provide funding 
certainty. That will literally take 35 to 40 percent of our 
capital program right off the books.
    Senator Barrasso. Mr. Demetriou, a final question. Could 
you give us your thoughts on how the lack of certainty caused 
by the absence of long-term Federal highway funding impacts the 
private sector?
    Mr. Demetriou. I think it is a major issue if we do not get 
the long term, six-plus year type funding. At the end of the 
day, businesses all have a long-term strategy. We all have our 
funding that is laid out for the next several years. Unless we 
have long term certainty around infrastructure improvement, 
enhancements and innovation, then we are not going to make 
decisions to invest in expansion or growth in our own 
businesses.
    I think it is critical and I think it is a global 
competitive situation for the United States because most of us 
are global companies. We are trying to figure out where to put 
our assets. Everything is set up here to do it in the United 
States except for the infrastructure equation that needs to get 
solved.
    Senator Barrasso. I appreciate the three of you being here 
and for your excellent testimony. There are some members who 
might want to submit some written questions so I ask that you 
respond. We will keep the record open for 2 weeks.
    I think all the members want to thank you and I want to 
thank all members who attended today. I think our esteemed 
guests really did an excellent job bringing home the points, 
Senator Carper, that we have been looking at, the time and 
crucial discussions regarding our Nation's surface 
transportation needs.
    Thank you so very much.
    Senator Carper. Before we adjourn, I have one question I 
wanted to ask Mr. McKenna about a freight enhancement program 
you all have in Missouri that my staff tells me has been quite 
successful in making meaningful and targeted investments in 
transfer points within the supply chain.
    Can you take a minute and tell us about that?
    Mr. McKenna. Thank you, Senator.
    Yes, we have small general revenue that comes through our 
legislature. We put it in freight enhancement. It enables us to 
target very specific work. In many cases, we have been able to 
do rail spurs at our ports. Those are very important 
considerations when we consider the multimodal, the trans-
loading needs for the agricultural economy in the State of 
Missouri.
    We work with our regional partners and our freight advisory 
committees to determine what those project priorities are and 
how to apply those funds. It has been very successful. We are 
really pleased with it and hope to be able to continue it.
    Senator Carper. Thanks for sharing that.
    Thank you all. It has been delightful and informative. I 
would like to bring you back next week but we probably could 
not do that.
    Mr. Chairman, I would ask unanimous consent to submit a 
letter to the record from nine environmental organizations 
strongly opposing any tax and integrity of environmental laws 
and any attempts to limit the ability of ordinary citizens 
access to the courts or limit consideration of environmental, 
economic and social justice impacts on public projects in any 
infrastructure bill considered by this Congress.
    Thank you.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you all very much.
    The hearing is adjourned.
    [Whereupon, at 11:39 a.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
